i~"l   DEPARTMENT OF HEALm & HUMAN SERVICES                                            Office of Inspector General

                                                                                       Office of Audit Services
                                                                                       1100 Commerce, Room 632
                                                                                       Dallas, TX 75242




   Report Number: A-06-07-00096                                     September 8, 2008

   Mr. John Matessino
   President
   Louisiana Hospital Association
   C/O Asha Green
   9521 Brookline Avenue
   Baton Rouge, Louisiana 70809-1431

   Dear Mr. Matessino:

   Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
   General (OIG), final report entitled "Review of Louisiana Bioterrorism Hospital Preparedness
   Program - Louisiana Hospital Association." We will forward a copy of this report to the action
   official noted on the following page for review and any action deemed necessary.

   The action official will make final determination as to actions taken on all matters reported. We
   request that you respond to this official within 30 days from the date ofthis letter. Your
   response should present any comments or additional information that you believe may have a
   bearing on the final determination.

   Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.c. § 552, as amended by
   Public Law 104-231, OIG reports generally are made available to the public to the extent the
   information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
   will be posted on the Internet at http://oig.hhs.gov.

   If you have any questions or comments about this report, please do not hesitate to call me, or
   contact Cheryl Blackmon, Audit Manager, at (214) 767-9205 or through e-mail at
   Cheryl.Blackmon@oig.hhs.gov. Please refer to report number A-06-07-00096 in all
   correspondence.

                                                Sincerely,

                                               ~~~

                                                Gordon Sato
                                                Regional Inspector General
                                                 for Audit Services


   Enclosure
Page 2 - Mr. John Matessino


Direct Reply to Action Official:

Mr. Alan Levine
Secretary
Louisiana Department of Health and Hospitals
628 North 4th Street
P.O. Box 629
Baton Rouge, Louisiana 70802
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





        REVIEW OF LOUISIANA

       BIOTERRORISM HOSPITAL

      PREPAREDNESS PROGRAM – 

         LOUISIANA HOSPITAL

            ASSOCIATION





                    Daniel R. Levinson

                     Inspector General 


                     September 2008

                      A-06-07-00096

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY


BACKGROUND

The Bioterrorism Hospital Preparedness Program (the Program) provided funding to State,
territorial, and municipal governments or health departments to upgrade the preparedness of
hospitals and collaborating entities to respond to bioterrorism and other public health
emergencies. The Health Resources and Services Administration (HRSA) administered the
Program until March 2007. At that time, responsibility for the Program was transferred from
HRSA to the Assistant Secretary for Preparedness and Response pursuant to the Pandemic and
All Hazards Preparedness Act (P.L. 109-417, December 19, 2006). The Louisiana Department
of Health and Hospitals (the State agency) entered into cooperative agreements with HRSA to
carry out Program activities and, for the period September 1, 2004, through August 31, 2006,
received Program funds totaling $15,283,738. The State agency then entered into contracts with
the Louisiana Hospital Association (LHA) to hire grant coordinators and staff to administer the
HRSA grant.

OBJECTIVE

Our objective was to determine whether LHA claimed administrative and hospital costs that
were reasonable, allocable, and allowable.

SUMMARY OF FINDINGS

Of the $2,261,662 of Program expenditures we reviewed, the hospitals improperly charged the
Program $10,887. LHA and the hospitals also failed to provide supporting documentation for
expenditures totaling $102,158; however, because documentation supporting $95,935 of this
amount was destroyed by Hurricane Katrina, we are questioning only the remaining $6,223 in
unallowable Program costs. LHA allowed hospitals to spend $938,462 before the contract was
executed or after the spending agreements’ deadline. Of this amount, we are questioning
$54,903 spent more than 90 days after the Federal Program funding period ended. In addition,
we are questioning undisbursed hospital Program funds totaling $37,969 that remained in LHA’s
bank account.

LHA’s monitoring process was not sufficient to ensure that hospitals provided LHA with
supporting documentation for expenditures.

RECOMMENDATIONS

We recommend that LHA work with the State agency to:

   •	 refund $109,982 to HRSA;

   •	 review the funds spent by hospitals after the spending deadlines and amend the spending
      deadlines in the contracts with LHA, if determined to be proper;




                                               i
   •	 ensure that LHA strengthens its review process to detect future unallowable expenditures;

   •	 ensure that the requirements in future spending agreements with hospital providers are
      followed; and

   •	 monitor grant- and subgrant-supported activities to assure compliance with applicable
      Federal requirements and achievement of performance goals.

LOUISIANA HOSPITAL ASSOCIATION COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In its comments on our draft report, LHA provided information on actions that it had taken or
planned to take on all five of our recommendations and generally agreed with our recommendations.
LHA also provided supporting documentation for items that were brought to its attention or were
not available at the time of our review and offered additional technical comments concerning our
findings. After carefully considering LHA’s comments and the additional documentation, we
revised the report where appropriate. LHA’s comments, excluding proprietary information, are
included as Appendix D.




                                                ii
                                                 TABLE OF CONTENTS
                                                                                                                        Page

INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1         

              Bioterrorism Hospital Preparedness Program..............................................1                             

              Bioterrorism Program Funding ....................................................................1                    

              Louisiana Bioterrorism Program .................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2 

               Objective .....................................................................................................2     

               Scope ...........................................................................................................2   

               Methodology ................................................................................................3        


FINDINGS AND RECOMMENDATIONS ...................................................................3 


          UNALLOWABLE HOSPITAL EXPENDITURES ...............................................4                                        


          UNDOCUMENTED HOSPITAL EXPENDITURES ............................................4 


          HOSPITALS’ SPENDING DEADLINES NOT MET ...........................................5 


          UNDISBURSED HOSPITAL FUNDS ..................................................................6 


          INSUFFICIENT MONITORING OF HOSPITALS ..............................................7 


          RECOMMENDATIONS ........................................................................................8 


          LOUISIANA HOSPITAL ASSOCIATION COMMENTS AND OFFICE 

           OF INSPECTOR GENERAL RESPONSE .........................................................8 

                Unallowable Hospital Expenditures ...........................................................8 

                Undocumented Hospital Expenditures .......................................................9                         

                Hospitals’ Spending Deadlines Not Met .....................................................9 

                Undisbursed Hospital Funds .......................................................................9 

                Insufficient Monitoring of Hospitals ..........................................................9 


APPENDIXES

          A – SUMMARY OF UNALLOWABLE HOSPITAL EXPENDITURES

          B – SUMMARY OF UNDOCUMENTED HOSPITAL EXPENDITURES




                                                                   iii
C – SUMMARY OF HOSPITAL EXPENDITURES MADE BEFORE
     THE CONTRACT WAS EXECUTED OR AFTER SPENDING
     AGREEMENT DEADLINES

D – LOUISIANA HOSPITAL ASSOCIATION’S COMMENT




                           iv
                                            INTRODUCTION 


BACKGROUND

Bioterrorism Hospital Preparedness Program

The Bioterrorism Hospital Preparedness Program (the Program) provided funding to State,
territorial, and municipal governments or health departments to upgrade the preparedness of
hospitals and collaborating entities to respond to bioterrorism and other public health
emergencies. The Health Resources and Services Administration (HRSA) administered the
Program until March 2007. At that time, responsibility for the Program was transferred from
HRSA to the Assistant Secretary for Preparedness and Response pursuant to the Pandemic and
All Hazards Preparedness Act (P.L. 109-417, December 19, 2006).

Bioterrorism Program Funding

Grants awarded in program years 2003 through 2005 were funded through 1-year appropriations.
HRSA initially established 12-month program years for 2003 through 2005 and then extended
the years for up to 24 additional months.1

To monitor the expenditure of these funds, HRSA required awardees to submit financial status
reports (FSRs) showing the amounts expended, obligated, and unobligated. Financial reporting
requirements (45 CFR § 92.41(b) (3)) for Department of Health and Human Services (HHS)
grants to State and local governments state: “If the Federal agency does not specify the
frequency of the report, it will be submitted annually.” Because Program guidance for 2003 was
silent on the frequency of submission, annual FSRs were required for that year. Program
guidance for 2004 and 2005 required quarterly interim FSRs and a final FSR 90 days after the
end of the budget period, which we are referring to in this report as a “program year.”

Louisiana Bioterrorism Program

The Louisiana Department of Health and Hospitals (the State agency) entered into cooperative
agreements with HRSA to implement the Program for the State of Louisiana. (A cooperative
agreement is an award of financial assistance under which substantial collaboration is anticipated
between the HHS awarding agency and the recipient during the project.) Subsequently, the State
agency entered into a contract with the Louisiana Hospital Association (LHA), a non-profit
corporation to hire grant coordinators and staff to administer the HRSA grant. The State agency
also entered into interagency agreements with various State subagencies, including Pharmacy
Services, the Nursing Services Section, the Bioterrorism Section, and the Bureau of Emergency
Medical Services (the Bureau), which contracted with emergency medical services (EMS)
providers.




1
 For Louisiana, program year 2003 was September 1, 2003, to August 31, 2006; program year 2004 was
September 1, 2004, to August 31, 2006; and program year 2005 was September 1, 2005, to August 31, 2007.


                                                      1

LHA is responsible for all financial reporting for Louisiana Hospital Association Research &
Education Foundation, a legal entity that administers all grant activities. Louisiana Hospital
Association Research & Education Foundation enters into spending agreements with hospitals
and reviews their supporting documentation. The spending agreements state the amount of the
grants, set spending deadlines, and describe the documentation required to support HRSA grant
expenditures.

LHA disburses all HRSA grant funds to hospitals and EMS providers based on allocation
models. The allocation models specify the grant amount for each hospital and EMS provider and
for any special projects. The hospital and EMS allocation models are developed by LHA, the
Bureau staff, the State agency grant principal investigator (grant PI), designated regional
coordinators (DRC), and representatives from the Louisiana Rural Ambulance Alliance. The
models are approved by the HRSA Advisory Committee. We are issuing a separate report to the
Bureau of EMS for EMS expenditures.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether LHA claimed administrative and hospital costs that
were reasonable, allocable, and allowable.

Scope

Our review covered $10,186,7192 in Program expenditures for the period September 1, 2004,
through August 31, 2006.

We selected a nonstatistical sample of LHA expenses related to payroll, travel, supplies, and
services totaling $400,293. We also selected a nonstatistical sample of hospitals. We reviewed
the spending agreements and supporting documentation for each hospital to ensure that funds
were spent according to its spending agreement. The table below summarizes the hospital
expenditures that we reviewed.

                           Number of Hospitals and Value of Expenditures Reviewed
                                                                    Total           Hospital
       Program                Total            Hospitals          Hospital        Expenditures
         Year                Hospitals        Reviewed3         Expenditures        Reviewed
    2004                       240                20             $4,647,796        $1,048,974
    2005                       246                13              4,389,546          812,395
         Total                                                   $9,037,342        $1,861,369



2
 Of this amount, $1,060,485 was for LHA’s administrative expenses, $9,037,342 was hospital expenditures, and
$88,892 was undisbursed funds remaining in LHA’s bank account.
3
    Special projects are included with these hospitals.


                                                          2
We did not review LHA’s overall internal control structure. We limited our internal control
review to obtaining an understanding of LHA’s accounting and monitoring procedures.

We performed fieldwork at LHA offices from March through September 2007. In May 2008, we
performed additional fieldwork at selected hospitals.

Methodology

To accomplish our objective, we:

   •	 reviewed relevant Federal regulations to gain an understanding of the financial and
      program requirements,

   •	 determined LHA’s accounting procedures,

   •	 determined the disbursement process of funds to the hospitals,

   •	 reviewed sampled hospitals’ expenditures, and

   •	 determined whether LHA had monitoring procedures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of the $2,261,662 of Program expenditures we reviewed, the hospitals improperly charged the
Program $10,887. LHA and the hospitals also failed to provide supporting documentation for
expenditures totaling $102,158; however, because documentation supporting $95,935 of this
amount was destroyed by Hurricane Katrina, we are questioning only the remaining $6,223 in
unallowable Program costs. LHA allowed hospitals to spend $938,462 before the contract was
executed or after the spending agreements’ deadline. Of this amount, we are questioning
$54,903 spent more than 90 days after the Federal Program funding period ended. In addition,
we are questioning undisbursed hospital Program funds totaling $37,969 that remained in LHA’s
bank account.

LHA’s monitoring process was not sufficient to ensure that hospitals provided LHA with
supporting documentation for expenditures.




                                               3

UNALLOWABLE HOSPITAL EXPENDITURES

Cost principles provide that to be allowable under an award, costs must be reasonable and
allocable. (2 CFR part 230, Appendix A, sections A.2.a and A.2.f; 45 CFR part 74, Appendix E,
sections A-D)

We identified unallowable hospital expenditures totaling $10,096 for program year 2004 and
$791 for program year 2005:

   •   phone expenditures that were not related to the grant,
   •   duplicate expenditures,
   •   expenditures over the salary cap,
   •   unallowable alcohol expenditures, and
   •   unallowable food and paper goods expenditures.

(See Appendix A for a summary of unallowable hospital expenditures.)

Hospital officials said that they had paid for the phone, alcohol, and unallowable food and paper
goods expenditures because they believed that they were allowable expenditures. When we
asked an LHA official about the food and paper goods purchases, she said that the hospital could
have put the funds to better use by purchasing meals ready to eat because they are nonperishable.
The official said that anyone could use the paper goods; therefore, there was no assurance that
the goods were actually bought for the Program. The duplicate expenditures and amount paid
over the salary cap were administrative errors made by the hospital.

UNDOCUMENTED HOSPITAL EXPENDITURES

Pursuant to 45 CFR § 74.21(b)(7), which are grant administration requirements applicable to
HHS-funded grants and subawards to non-governmental entities, recipients’ financial
management systems should provide accounting records, including cost accounting records, that
are supported by source documentation.

Louisiana Hospital Association Research & Education Foundation spending agreements for
2004-2005 and 2005-2006 required receipts, invoices marked “paid,” or copies of canceled
checks to support expenditures. The agreements also specified dates for submitting the required
supporting documentation to LHA.

Hospitals did not provide supporting documentation for Program expenditures totaling $102,158
for program year 2004. Because documentation supporting $95,935 of the total was destroyed
by Hurricane Katrina, we are questioning only the remaining expenditures totaling $6,223. (See
Appendix B for a summary of the undocumented hospital expenditures.)




                                                4

We identified expenditures that could not be supported because hospital officials:

   •	 could provide information only from their purchasing systems because supporting
      documentation for expenditures totaling $95,935 had been lost in the hurricanes and

   •	 could not locate supporting documentation for expenditures totaling $6,223.

HOSPITALS’ SPENDING DEADLINES NOT MET

Pursuant to 45 CFR § 92.40, “Grantees must monitor grant and subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved.”

Regulations (45 CFR 74.51(a)) state: “Recipients are responsible for managing and monitoring
each project, program, subaward, function or activity supported by the award.”

In accordance with 45 CFR § 92.23 (b), “A grantee must liquidate all obligations incurred under
the award not later than 90 days after the end of the funding period . . . . The Federal agency may
extend this deadline at the request of the grantee.”

Pursuant to 45 CFR § 74.71 (b), “Unless the HHS awarding agency authorizes an extension, a
recipient shall liquidate all obligations incurring under the award not later than 90 calendar days
after the funding period . . . .”

The 2004-2005 and 2005-2006 “Louisiana Hospital Association Research & Education
Foundation Spending Agreement HRSA Funds” states: “These monies must be spent by
[specified date]. The appropriate documentation for these expenditures must be provided to
LHA-Research & Education Foundation by [specified date].”

A substantial portion of the hospitals’ funds were spent before the contract was executed or after
the spending agreements’ deadline stipulated to in the spending agreement. Program year 2004
originally ended August 31, 2005, and program year 2005 originally ended August 31, 2006;
however, each of the years were extended 12 additional months by HRSA.

We reviewed the invoices and paid dates and found that hospitals spent:

   •	 64 percent, or $596,782, of their program year 2004 funds before the contract was 

      executed or after the spending agreements’ deadline; and 


   •	 42 percent, or $341,680, of their program year 2005 funds before the contract was 

      executed or after the spending agreements’ deadline. 


(See Appendix C for a summary of hospital expenditures made after spending agreement
deadlines.)




                                                 5

The hospitals did not receive their spending agreements and funding until the last quarter of the
original program years. Therefore, hospitals did not have a sufficient amount of time to spend
their funds. An official at one hospital expressed his frustration over the spending deadline by
giving the following example. Hospital officials did not order items until the Program funds
were received. In addition, the hospital did not pay the vendors until the items were received,
which, because of the nature of the items often took quite some time. The official stated that
LHA’s spending agreement deadline was unrealistic given that the hospital did not receive the
funds until late in the program year. In another example given by the hospital official, the
hospital was given an additional spending agreement with a 5-day deadline. Because the
hospital had only 5 days to spend the money, the official said, hospital officials scrambled to
purchase items that may never be used.

LHA officials said that hospitals could have extended their spending agreement deadlines and
added that LHA’s hospital files should contain documentation supporting extensions of
hospitals’ spending agreement deadlines if extensions had been granted. LHA officials said that
for program year 2004, hospitals were granted extensions either verbally or in an email, if
requested. For program year 2005, LHA required hospitals to request extensions in writing. The
files we reviewed at LHA and at the hospitals showed no evidence that extensions had been
granted.

Out of the $938,462 that was spent before the contract was executed or after the spending
deadline, we found that $86,547 was spent outside of the 2004 and 2005 Federal program year
funding periods established by HRSA. A recipient has an additional 90 days after the close of
the funding period to liquidate all obligations incurred in the funding period. Because we cannot
distinguish between the hospitals’ obligations and liquidations, we are only questioning $54,903
for program year 2004 that was spent beyond the 90-day period following the end of the Federal
Program period.

UNDISBURSED HOSPITAL FUNDS

Pursuant to 45 CFR § 92.21(c), “Grantees and subgrantees shall be paid in advance, provided
they maintain or demonstrate the willingness and ability to maintain procedures to minimize the
time elapsing between the transfer of the funds and their disbursement by the grantee or
subgrantee.”

Regulations (45 CFR § 92.23) state: “Where a funding period is specified, a grantee may charge
to the award only costs resulting from obligations of the funding period unless carryover of
unobligated balances is permitted, in which case the carryover balances may be charged for costs
resulting from obligations of the subsequent funding period.”

In accordance with 45 CFR § 74.22(b), “Recipients will be paid in advance, provided they
maintain or demonstrate the willingness to maintain: (i)Written procedures that minimize the
time elapsing between the transfer of funds and disbursement by the recipient; and (ii) Financial
management systems that meet the standards for fund control and accountability as established in
74.21.”




                                                6

Pursuant to 45 CFR § 74.28, “Where a funding period is specified, a recipient may charge to the
award only allowable costs resulting from obligations incurred during the funding period and any
pre-award costs authorized by the HHS awarding agency pursuant to § 74.25(d)(1).”

The “National Bioterrorism Hospital Preparedness Program FY 2004 Continuance Guidance”
states that awardees must obligate funds in a timely and efficient manner to ensure that hospitals,
EMS systems, poison control centers, and other subrecipients are allowed maximum time and
resources to achieve critical benchmarks and minimal levels of readiness.

At the time of our audit, undisbursed program year 2004 hospital funds totaling $8,969 remained
in LHA’s bank account. After the HRSA Advisory Committee approved the allocation model,
LHA disbursed an initial allocation to the hospitals. Some hospitals returned all of their
allocations to LHA for redistribution because they did not want to participate; some hospitals
spent only part of their allocations.

LHA redistributed funds four times for program year 2004. According to an LHA official, the
undisbursed funds were overlooked because of an administrative error related to the amount of
time the files remained open. As a result, we are questioning $8,969 in undisbursed program
year 2004 hospital funds.

Undisbursed program year 2005 funds totaling $79,923 remained in LHA’s bank account at the
beginning of our fieldwork. An LHA official said that the redistribution of 2005 grant funds was
delayed so that the returned funds could be redistributed to the hospitals once rather than
multiple times as in program year 2004. By the end of our fieldwork, all but $29,000 of the
undisbursed funds had been distributed to the hospitals. The $29,000 remained undistributed
because LHA could not reach an agreement with the recipient hospital. Therefore, we are
questioning $29,000 of undisbursed program year 2005 hospital funds.

INSUFFICIENT MONITORING OF HOSPITALS

Pursuant to 45 CFR § 92.40, “Grantees must monitor grant and subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved.”

Pursuant to 45 CFR § 74.21(b), recipients’ financial management systems should provide
accounting records, including cost accounting records, that are supported by source
documentation.

Regulations (45 CFR § 74.51(a)) state: “Recipients are responsible for managing and monitoring
each project, program, subaward, function or activity supported by the award.”

Louisiana Hospital Association Research & Education Foundation Spending Agreements for
2004-2005 and 2005-2006 required receipts, invoices marked “paid,” or copies of canceled
checks to support expenditures. The agreements also give specific dates for submitting the
required supporting documentation to the LHA Research & Education Foundation.




                                                 7

LHA’s monitoring process was not sufficient to ensure that hospitals sent in supporting
documentation for expenditures. Also, LHA did not conduct site visits. LHA did not always
have supporting documentation for nine of the sampled hospitals’ expenditures, although it had
tried to obtain the documentation. Subsequently, we visited eight of the hospitals and found that
they had most of the supporting documentation. Without the supporting documentation, LHA
had no assurance that the hospitals were spending Program funds on allowable expenditures.

RECOMMENDATIONS

We recommend that LHA work with the State agency to:

   •	 refund $109,982 to HRSA;

   •	 review the funds spent by hospitals after the spending deadlines and amend the spending
      deadlines in the contracts with LHA, if determined to be proper;

   •	 ensure that LHA strengthens its review process to detect future unallowable expenditures;

   •	 ensure that the requirements in future spending agreements with hospital providers are
      followed; and

   •	 monitor grant- and subgrant-supported activities to assure compliance with applicable
      Federal requirements and achievement of performance goals.

LOUISIANA HOSPITAL ASSOCIATION COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In its comments on our draft report, LHA provided information on actions that it had taken or
planned to take on all five of our recommendations and generally agreed with our recommendations.
LHA also provided supporting documentation for items that were brought to its attention or were
not available at the time of our review and offered additional technical comments concerning our
findings. After carefully considering LHA’s comments and the additional documentation, we
revised the report where appropriate. LHA’s comments, excluding proprietary information, are
included as Appendix D.

Unallowable Hospital Expenditures

LHA stated that the phone expenditure was for the direct supervisor of the Region 7
administrative designated regional coordinator (ADRC). The phone purchased was used by the
supervisor so that she could be updated by the ADRC while she was away from the office. In
addition, the supervisor helped with the regulatory and compliance issues for the hospital during
disasters. During our visit to the hospital, an official told us that the supervisor did not charge
time to the grant. We also verified that none of her salary was charged to the grant. The phone
expenditures for the supervisor were unallowable; thus, we continue to recommend that LHA
refund to HRSA the amount owed.



                                                 8

LHA also provided additional salary and benefit documentation for the ADRC, whose salary was
over the salary cap. After comparing the documentation to the documentation that was provided
to us while onsite, we reduced the unallowable amount over the salary cap to $8,290; therefore
we continue to recommend that a total of $10,887 be refunded to HRSA for unallowable
expenditures. See Appendix A for a summary of unallowable hospital expenditures.

LHA stated that it would send letters to hospitals with unallowable expenditures, and upon
receipt of the funds, return the funds to the State agency. LHA also said that it has revised its
policies and procedures to detect future unallowable expenditures.

Undocumented Hospital Expenditures

LHA stated it would send letters to hospitals with undocumented expenditures and request that
they return the funds. LHA also provided us with documentation from Christus Schumpert for
the $1,958 that was unsupported while we were onsite; therefore we reduced the total to be
returned to HRSA to $6,223. LHA also said that it has revised its policies and procedures to
ensure that spending agreement requirements are met.

Hospitals’ Spending Deadlines Not Met

LHA stated that Lafayette General Medical Center, one of the hospitals that spent funds 90 days
or more after the HHS program year, had signed an amended contract with LHA, extending the
deadline to February 3, 2007. Regulations require that obligations be incurred within the Federal
program year funding period (45 CFR § 74.28) and that those obligations be liquidated within 90
days after the end of the funding period (45 CFR § 74.71 (b)). Program year 2004 ended August
31, 2006, and HRSA did not grant an extension beyond that date. Even if an extension had been
granted, the expenditures in question were purchased after February 3, 2007. We continue to
question the $54,903 spent more than 90 days after the Federal funding period ended.

Undisbursed Hospital Funds

LHA returned the $37,969 in undistributed funds to the State agency on August 5, 2008.

Insufficient Monitoring of Hospitals

LHA has revised its policies and procedures to include yearly site visits, which will help LHA
ensure compliance with grant requirements. LHA said that it would ensure that all grant
members follow the revised policies and procedures.




                                                 9

APPENDIXES 

                                                                          APPENDIX A





             SUMMARY OF UNALLOWABLE HOSPITAL EXPENDITURES



Program Year 2004 Hospital   Amount              Reason for Disallowance

Christus Schumpert            $1,178   Phone expenditures not grant related
                                 602   Duplicate expenditures
Christus Schumpert
 Special Project               8,290   Amount over the salary cap
                                  26   Unallowable alcohol expenditures
  Total                      $10,096

Program Year 2005 Hospital   Amount              Reason for Disallowance

Health Paradigm                $791    Unallowable food and paper goods expenditures
  Total                        $791
                                                                  APPENDIX B





                 SUMMARY OF UNDOCUMENTED HOSPITAL EXPENDITURES 



                                      Undocumented
       Program Year 2004 Hospitals      Amounts          Reason for Disallowance

Chalmette                                 $32,106    Records destroyed by hurricane
Christus Schumpert Special Project          1,723    Could not obtain documentation
Methodist                                  33,299    Records destroyed by hurricane
Specialty Hospital of New Orleans           4,500    Could not obtain documentation
Veterans                                   30,530    Records destroyed by hurricane
  Total                                  $102,158
   Hurricane-related expenditures         (95,935)
   Total unallowable                       $6,223
                                                                                                                         APPENDIX C
                                                                                                                           Page 1 of 2



                                  SUMMARY OF HOSPITAL EXPENDITURES MADE BEFORE THE CONTRACT

                                     WAS EXECUTED OR AFTER SPENDING AGREEMENTS DEADLINES


                                                                        Amount Spent        Amount Spent           Amount Spent
                                                         Spending     Before the Contract    After HRSA        90 Days or More After
                                                         Agreement     Was Executed Or      Program Year          HRSA Program
            Program Year 2004 Hospitals                   Amount        After Deadline                                 Year

Baton Rouge General (Bluebonnet and Mid City)               $78,403              $78,403              $2,929
Christus Schumpert (St. Mary, Highland, and Bossier)         79,779               74,810
East Jefferson General Hospital                              50,420               42,402
Lake Charles Memorial and Extended Care of SW LA             41,894               35,166
LSU Bogalusa Medical Center (Inpatient and Outpatient)       48,366               48,366
Christus St. Frances Cabrini Hospital                        85,413               46,078
St. Francis Medical Center                                   47,235               39,828               5,517
Terrebonne General Medical Center                            47,960               35,641
West Jefferson Medical Center                                71,046               48,849
Lafayette General Medical Center                             51,478               45,231               9,143                  $5,598
Lake Charles & Lafayette General Special Project            108,000               68,177              68,177                  49,132
Opelousas General Hospital                                   30,529               18,383                 485                     173
Luling Rehabilitation Center                                  2,128                2,128
St. Francis Medical Center Special Project                   90,000                    0
Christus Schumpert St. Mary Special Project                 102,598               13,320                 296
    Total                                                  $935,249             $596,782             $86,547                 $54,903
                                                                                                                        APPENDIX C
                                                                                                                          Page 2 of 2

                                   SUMMARY OF HOSPITAL EXPENDITURES MADE BEFORE THE CONTRACT
                                      WAS EXECUTED OR AFTER SPENDING AGREEMENTS DEADLINES

                                                                   Amount Spent        Amount Spent               Amount Spent
                                                    Spending     Before the Contract    After HRSA            90 Days or More After
                                                    Agreement     Was Executed Or      Program Year              HRSA Program
            Program Year 2005 Hospitals              Amount        After Deadline      August 31, 2007                Year

Baton Rouge General (Bluebonnet and Mid City)          $99,659              $62,712
Christus St. Frances Cabrini Hospital                   39,925               37,987
East Jefferson General Hospital                         65,904               61,852
Lafayette General Medical Center                        20,439               20,061
Lake Charles Memorial                                   47,547               37,885
LSU Health Sciences - Shreveport                        40,444               34,919
Special Project Lafayette General Medical Center       305,760                    0
St. Francis Medical Center                              37,090               37,090
St. Tammany Hospital                                    41,020                6,947
Terrebonne General Medical Center                       41,118               41,118
West Jefferson Medical Center                           65,875                    0
Health Paradigm                                          1,109                1,109
Sterling Rehabiliitation Hospital                        5,525                    0
                                                      $811,415             $341,680                      $0                      $0
Program Year 2005 total
Program Year 2004 total                               $935,249             $596,782               $86,547                   $54,903

                                                    $1,746,664            $938,462                $86,547                  $54,903
Grand Total
                                                                                                    APPENDIX D
                                                                                                      Page 1 of 6 





         LOUISIANA HOSPITAL ASSOCIATION
         JOHN A. MATESSINO                             9521 BROOKLINE AVENUE • BATON ROUGE, LOUISIANA 70809-1431
             PRESIDENT & CEO                             (225) 928-0026 • FAX (225) 923-1004 • www.lhaonline.org




August 6, 2008

Attn: Gordon Sato
Regional Inspector General
Office of Audit Services
1100 Commence, Room 632
Dallas, TX 75242

Report Number: A-06-07-00096

Dear Mr. Sato

The Louisiana Hospital Association (LHA) Health and Human Services grant staff has
reviewed the Office of the Inspector General's (OIG) final draft report entitled "The Review
of Louisiana Bioterrorism Hospital Preparedness Program." The grant staff provides
the enclosed comments regarding the draft report.

We appreciate the OIG's efforts to identify areas where improvements can be made. We
will continue to maintain our diligence and improve our controls over grant funds. If you
have any questions, please feel free to contact our grant staff at (225) 928-0026.

Sincerely,
                                    \




&
       ~/l~---J
 ohn  Mate~si~o c=J
 resident

Enclosure




                               AFFILIATED WITH THE AMERICAN HOSPITAL ASSOCIATION
                                                                                               APPENDIX D
                                                                                                 Page 2 of 6 





                      LOUISIANA HOSPITAL ASSOCIATION
                  RESPONSE TO OFFICE OF INSPECTOR GENERAL
                        REPORT NUMBER A·06-o7·00096

     The Louisiana Hospital Association (LHA) Health and Human Services (HHS)
     Grant staff has reviewed the Office of Inspector General's (DIG) final draft report
     entitled -The Review of Louisiana Bioterror;sm Hospital Preparedness
     Program." The grant staff appreciates the time and effort the DIG has given to
     this audit. Based on the audit report, we have initiated actions to address the
     DIG recommendations.

     The draft audit report contains five recommendations. We have developed a
     corrective action table to address all five of the DIG's recommendations. Each
     recommendation, along with its corrective actions andlor planned action and
     completion dates, are listed below.


  Audit Recommendations                 Action Taken                      Planned Action
Refund $112,597 to HRSA           The LHA returned the           Amended contracts will be sent to
                                  undistributed funds of         the remaining two hospitals that
                                  $37,969 to Department of       spent a total of $54,903, ninety days
                                  Health and Hospitals           or more after the HHS program
                                  (DHH) on 08105/08. For         year.
                                  copies of the checks,
                                  please refer to Appendix A.    Leiters will be sent to the hospitals
                                                                 with undocumented expenditures
                                  Lafayelle General Medical      ($8,181.00) requesting that they
                                  Center ($5,598). one of the    return a total of $6,911.38 ($8,181
                                  three hospitals that spent a   minus $1,958 from CHRISTUS
                                  total of $54,903 ninety        Schumpert Q!y§. an additional
                                  days or more after the         $688.38 of undocumented
                                  HHS program year, signed       expenditures from CHRISTUS
                                  an amended contract            Schumpert Special Project). The
                                  extending the deadline to      documentation for the $1,958 has
                                  February 3, 2007. For a        been obtained and will be provided
                                  copy of the amended            upon request.
                                  contract, refer to Appendix
                                  B.                             The remaining $11,544 is from
                                                                 hospitals with unallowable
                                                                 expenditures. A leiter will be sent to
                                                                 CHRISTUS Schumpert requesting
                                                                 that they return a total of $8,289.66
                                                                 for the unallowable expenditures
                                                                 spent over the salary cap. Upon
                                                                 receipt of funds, the LHA will return
                                                                 funds to DHH. For a copy of
                                                                 CHRISTUS undocumented and
                                                                 unallowable expenditures, see
                                                                 Appendix C.

                                                                 Alilellers and amended contracts
                                                                 will be sent the week of 8112108.
                                                                                                    APPENDIX D
                                                                                                      Page 3 of 6 





  Audit Recommendations                     Action Taken                        Planned Action

Review the funds spent by             An amended contract              The LHA will ensure that all
hospitals after the spending          extending the spending           extensions are in writing and a copy
deadlines and amend the               deadline was drafted and         of the extension letter has been
spending deadlines in the contract    will be sent to the hospitals    placed in the hospital's file. For
with the LHA, if determined to be     during the week of 8/12108.      policies and procedures on
proper                                                                 extending deadlines, see Appendix
                                                                       D, section II.D.


Ensure that the LHA strengthens       The LHA has revised its          The LHA will ensure revised policies
its review process to detect future   policies and procedures to       and procedures are being adhered
unallowable expenditures              detect future unallowable        to by all grant staff members.
                                      expenditures. See
                                      Appendix D, section 1I.E.ii.


Ensure that the requirements in       The LHA has revised its          The LHA wilt ensure revised policies
the future spending agreements        policies and procedures to       and procedures are being adhered
with hospitals are followed           ensure requirements in           to by all grant staff members.
                                      spending agreements are
                                      met. See Appendix D,
                                      section [I.


Monitor grants and sub grants-        The LHA has revised its          The LHA wili ensure revised policies
supported activities to ensure        policies and procedures to       and procedures are being adhered
compliance with applicable federal    include yearly site visits.      to by all grant staff members.
requirements and achievement of       See Appendix D, section
performance goals                     11.8.m. The yearly site visits
                                      will allow the lHA to
                                      ensure compliance with
                                      grant requirements.


      In addition, the lHA requests modifications to the final report on the following
      points:

           1. Report states on page; and 3, first sentence under "Findings and
              Recommendations": "LHA and the hospitals improperly charged the
              program $11,544:

              LHA Response: The lHA requests that the phrase be corrected as it is
              misleading. The statement implies that the LHA purchased unallowable
              items. Of the $400,293 of LHA expenses audited by the OIG, there was no
              evidence that the LHA improperly charged the program. Therefore, the
              lHA asks that the phrase be corrected in the final report to read "Hospitals
                                                       n
              improperly charged the program $11 ,544.



                                                     2
                                                                                  APPENDIX D
                                                                                    Page 4 of 6 





2. Report states on page i and 3, last sentence under "Findings and
   Recommendations": ~LHA insufficient monitoring contributed to the
   hospital's noncompliance with the terms of the spending agreement."

   LHA Response: The LHA requests that this phrase be deleted from the
   report. The lHA sent letters, made phone calls and sent emails to
   hospitals to obtain outstanding documentation or recoup the unspent grant
   funds. For a copy of a few of the notification letters andlor other forms of
   documentation, see AppendiX E. In addition, the LHA would like to point
   out that hospitals in the state of Louisiana were recovering from
   Hurricanes Katrina and Rita during the FY 2004-2005 and FY 2005-2006
   grant years. As such, documentation may have been destroyed or the
   personnel handling the HHS grants no longer worked at the facility.
   Because of these factors, documentation was hard to obtain.

3. Report states on page 4, first paragraph: "We identified unallowable
   hospital expenditures totaling $10,753 for program year 2004 and $791 for
   program year 2005:

      •   Phone expenditures that were not related to the grant.
      •   Duplicate expenditures
      •   Expenditures over the salary cap;
      •   Unallowable alcohol expenditures, and
      •   Unallowable food and paper good expenditures."

   LHA response: The LHA requests that the first bullet point (Phone
   expenditures that were not related to the grant) be removed from the
   report. The grant gUidance and the cost directives do not indicate that
   phones or blackberries could not be purchased with grant funds.
   The phone expenditure was for the purchase of a blackberry. The
   blackberry was provided to the direct supervisor of the Region 7
   Administrative Designated Regional Coordinator (ADRC) at the hospital
   mentioned in the audit report. The blackberry was provided so the ADRC
   could provide updates to his direct supervisor while she was away from
   the office. In addition, the supervisor helped with the regulatory and
   compliance issues for the hospital during disasters.

   In addition, the LHA requests the deletion of bullet point number 3
   (Expenditures over the salary cap). The administrative ORC contract for
   this program year does not mention a salary cap; therefore, funds can not
   be considered unallowable. For a copy of signed agreement, refer to
   Appendix F. CHRISTUS Schumpert does however recognize that there
   was a salary cap of $55,OOO/year. Therefore a letter will be sent to
   CHRISTUS Schumpert asking them to return a total of $8,289.66 for the
   unallowable expenditures over the salary cap during the week of 8/12/08.
   For a summary of CHRISTUS Schumpert's unallowable expenses, see
   Appendix C.

                                     3
                                                                                     APPENDIX D
                                                                                       Page 5 of 6 





4. Report states on page 4. second paragraph: "When we asked an lHA
   official about the food and paper goods purchases, she said that the
   hospital could have put the funds to better use by purchasing meals ready
   to eat because they are nonperishable. The official said that anyone could
   use the paper goods; therefore, there was no assurance that the goods
   were actually bought for the Program."

   LHA Response: The LHA notified this hospital about the purchase of the
   paper goods. The hospital was asked to submit another invoice to support
   the grant purchases because paper goods were not a good use of the
   funds. The lHA asks that the OIG report note the aforementioned
   statement in the audit report.

5. Report states on page 5, second to last paragraph: -The hospitals did
   not receive their spending agreements and funding until the last quarter of
   the original program years. Therefore, hospitals did not have a sufficient
   amount of time to spend their funds. An official at one hospital expressed
   his frustration over the spending deadline by giving the following example.
   Hospital officials did not order items until the program funds were
   received, which, because of the nature of the item often took quite some
   time. The official stated that lHA's spending agreement deadline was
   unrealistic given that the hospital did not receive the funds until late in the
   program year."

   LHA Response: The lHA requests that this phrase be deleted or
   modifications be made to the statement as it is misguiding. The statement
   indicates that the lHA was holding grant funds. The lHA cannot distribute
   funds to hospitals until funds have been released from DHH. DHH cannot
   release funds to the lHA until the allocation model has been approved by
   the HHS Advisory Board. The development and approval of the allocation
   model takes approximately 6-8 months. Upon approval of the allocation
   model, DHH releases the funds to the lHA, which in turn distributes the
   funds to the hospitals.

6. Reports states on page 6, first paragraph: "The files we reviewed at
   lHA and the hospitals showed no evidence of any type of extension being
   granted."

    lHA Response: During the FY 2004 and FY 2005 grant years, most
    extensions were either verbally given or provided in the form of an email.
    The lHA requests that the aforementioned statement be added to the
    grant report. The lHA will amend the FY 2004 and FY 2005 contracts and
    send letters to the hospitals listed in the appendix section of the GIG
    report during the week of 8f12/08.


 7. Reports states on page 6, second to last paragraph: "lHA
    redistributed funds four times for program year 2004. According to an

                                       4
                                                                                      APPENDIX D
                                                                                        Page 6 of 6 





      LHA official, because the files remained open for so long, the undisbursed
      funds were overlooked because of an administrative error. As a result, we
      are questioning $8,969 in undisbursed program year 2004 hospital funds."

      LHA Response: The LHA returned the $8,969 of undisbursed funds to
      DHH on 8/05/08. The LHA requests that the aforementioned statement is
      noted in the grant report. (See Appendix A for copy of check.)


   8. Report states on page 6, last paragraph: "The $29,000 remained
      undistributed because the LHA could not reach an agreement with the
      recipient hospital. Therefore, we are questioning the $29,000 of
      undisbursed program year 2005 hospital funds."

      LHA Response: The LHA returned the $29,000 of undisbursed funds to
      DHH on 8/05/08. The LHA requests that the aforementioned statement is
      noted in the grant report. (See Appendix A for copy of check.)

   9. Report states on page 7, fourth paragraph: "LHA's monitoring process
      was not sufficient to ensure that hospitals sent in supporting
      documentation for expenditures. Also, LHA did not conduct site visits.
      LHA did not always have supporting documentation. Subsequently, we
      visited eight of the hospitals and found that they had most of the
      supporting documentation. Without the supporting documentation. LHA
      had no assurance that the hospitals were spending the funds on allowable
      program expenditures."

      LHA Response: The LHA tried on numerous occasions to obtain the
      outstanding documentation or recoup the unspent grant funds from these
      hospitals. In addition, the LHA has revised its internal control policies and
      procedures for the HHS grant program to ensure hospital costs are
      reasonable and allowable. For revised policies and procedures, see
      Appendix E. The LHA requests that the aforementioned statement is
      noted in the grant report.

The LHA is appreciative of the feedback and the review of grant procedures by
the OIG. We request that the aforementioned modifications be added to the final
report. In conclusion, the LHA will continue to take actions to improve upon its
internal control policy.




                                         5
